      1'- 5iRVICIS'b;
                                                                                                        Office of Inspector General
(-t~.,                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                        Office of Audit Services



'O"'oj,~E
 ~.
  ~fl-"Ja
                                                                                                        Region VII
                                                                                                        601 East 12th Street
                                                                                                        Room 0429
                        JUL 1 02009                                                                     Kansas City, Missouri 64106



                        Report Number: A-07-09-00317

                        Mr. Carlos Gonzalez, CPA
                        Executive Vice-President of Infrastructure and Chief Financial Officer
                        Cooperativa de Seguros de Vida de Puerto Rico
                        400 Americo Miranda Avenue
                        Rio Piedras, Puerto Rico 00927

                        Dear Mr. Gonzalez:

                        Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
                        General (OIG), final report entitled "Review of Pension Costs Claimed for Medicare
                        Reimbursement by Cooperativa de Seguros de Vida de Puerto Rico, for Fiscal Years 1988
                        Through 1995." We will forward a copy of this report to the HHS action official noted on the
                        following page for review and any action deemed necessary.

                        The HHS action official will make final determination as to actions taken on all matters reported.
                        We request that you respond to this official within 30 days from the date of this letter. Your
                        response should present any comments or additional information that you believe may have a
                        bearing on the final determination.

                        Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                        available to the public to the extent that information in the report is not subject to exemptions in
                        the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                        If you have any questions or comments about this report, please do not hesitate to call me at
                        (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                        through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00317
                        in all correspondence.

                                                                       Sincerely,


                                                                       ~G,f.>~
                                                                ~     Patrick J. Cogley
                                                                      Regional Inspector General
                                                                       for Audit Services


                        Enclosure
Page 2 – Mr. Carlos González, CPA


Direct Reply to HHS Action Official:

Ms. Deborah Taylor, Acting Director
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF PENSION COSTS 

   CLAIMED FOR MEDICARE 

     REIMBURSEMENT BY 

 COOPERATIVA DE SEGUROS DE 

  VIDA DE PUERTO RICO, FOR 

        FISCAL YEARS 

     1988 THROUGH 1995





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-07-09-00317

                      Office of Inspector
                      Office of  nspector General
                                           eneral
                                         http://oig.hhs.gov
                                         http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
The mission
amended,     of protect
          is to the Office
                        theof  Inspector
                             integrity of General  (OIG), as
                                          the Department   ofmandated
                                                              Health andbyHuman
                                                                           Public Law   95-452,
                                                                                   Services      as
                                                                                             (HHS)
amended, isastowell
programs,       protect thehealth
                    as the   integrity
                                   andofwelfare
                                          the Department   of Health
                                                 of beneficiaries     and Human
                                                                  served  by thoseServices   (HHS)
                                                                                     programs.   This
programs,  as  well as the  health and  welfare  of beneficiaries served  by   those programs.
statutory mission is carried out through a nationwide network of audits, investigations, and     This
statutory mission  is carried out through   a nationwide  network
inspections conducted by the following operating components:       of  audits, investigations, and
inspections conducted by the following operating components:
Office of Audit Services
Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
The Office
audits with of
            its Audit Services
                own audit      (OAS)orprovides
                           resources             auditing
                                        by overseeing      services
                                                        audit work for HHS,
                                                                    done      either by
                                                                         by others.     conducting
                                                                                      Audits examine
audits with its own  audit resources or by overseeing   audit work  done by  others.  Audits
the performance of HHS programs and/or its grantees and contractors in carrying out their    examine
the performance   of HHS   programs  and/or its grantees  and contractors in carrying
respective responsibilities and are intended to provide independent assessments of HHS out their
respectiveand
programs   responsibilities
                operations. and areassessments
                            These   intended to help
                                                 provide  independent
                                                     reduce            assessments
                                                              waste, abuse,          of HHS ent and
                                                                            and mismanagem
programs  and   operations. These  assessments
promote economy and efficiency throughout HHS.  help reduce   waste, abuse, and  mismanagement   and
promote economy and efficiency throughout HHS.
Office of Evaluation and Inspections
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
The Officeand
Congress,   of Evaluation  and Inspections
               the public with              (OEI)
                                timely, useful, andconducts  national evaluations
                                                    reliable information          to provide
                                                                         on significant      HHS,
                                                                                        issues.
Congress,  and the  public with timely, useful, and reliable information on significant
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,     issues.
These evaluations
efficiency,         focus on preventing
            and effectiveness            fraud, programs.
                               of departmental  waste, or abuse  and promoting
                                                            To promote  impact, economy,
                                                                                OEI reports also
efficiency, and effectiveness  of departmental  programs.   To  promote
present practical recommendations for improving program operations.     impact, OEI reports also
present practical recommendations for improving program operations.
Office of Investigations
Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
The Office
fraud       of Investigations
      and misconduct    related(OI)   conducts
                                 to HHS         criminal,
                                          programs,        civil, and
                                                      operations,  andadministrative
                                                                        beneficiaries.investigations
                                                                                         With          of
fraud and misconduct    related  to HHS   programs,   operations,  and  beneficiaries.   With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
investigators
actively      working with
         coordinating   in allthe
                               50Department
                                   States and the  Districtand
                                                of Justice  of Columbia,    OI utilizes
                                                                other Federal,          its resources
                                                                                State, and   local law by
actively coordinating
enforcement            withThe
              authorities.    the investigative
                                   Department of   Justice
                                                efforts of and  otherlead
                                                           OI often    Federal, State, and
                                                                           to criminal       local law
                                                                                        convictions,
enforcement   authorities.  The   investigative efforts of
administrative sanctions, and/or civil monetary penalties. OI  often  lead to criminal  convictions,
administrative sanctions, and/or civil monetary penalties.
Office of Counsel to the Inspector General
Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
The Officeadvice
rendering   of Counsel   to the Inspector
                  and opinions    on HHS General
                                           programs(OCIG)    provides and
                                                      and operations    general  legal services
                                                                             providing  all legalto OIG,
                                                                                                  support
rendering advice  and   opinions  on  HHS  programs   and operations    and  providing  all
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud andlegal support
for OIG’s
abuse casesinternal  operations.
             involving            OCIG represents
                         HHS programs,    including OIG
                                                     FalseinClaims
                                                             all civil andprogram
                                                                     Act,   administrative   fraud
                                                                                    exclusion,     and
                                                                                                 and civil
abuse cases
monetary     involving
          penalty        HHS
                    cases.     programs, including
                           In connection   with theseFalse  Claims
                                                       cases, OCIGAct,alsoprogram   exclusion,
                                                                           negotiates            and civil
                                                                                        and monitors
monetary integrity
corporate penalty cases.   In connection
                     agreements.           with these
                                     OCIG renders      cases, opinions,
                                                   advisory   OCIG also    negotiates
                                                                         issues         and monitors
                                                                                compliance     program
corporate integrity  agreements.     OCIG  renders advisory   opinions,  issues compliance
guidance, publishes fraud alerts, and provides other guidance to the health care industry      program
guidance, publishes   fraud  alerts, and provides other  guidance   to the
concerning the anti-kickback statute and other OIG enforcement authorities.health  care  industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that COSVI claimed for
Medicare reimbursement for fiscal years (FY) 1988 through 1995.

SUMMARY OF FINDING

COSVI claimed $70,282 of unallowable Medicare pension costs for FYs 1988 through 1995.
This overstatement occurred primarily because COSVI calculated pension expense using the
contributions to the pension plan instead of computing pension costs in accordance with CAS
412 and 413, as required by the Medicare contracts. In basing the pension expense on the
pension plan contributions, COSVI claimed $607,093 in Medicare reimbursement. We
calculated allowable pension costs for this period in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $536,811, a difference of $70,282.

RECOMMENDATION

We recommend that COSVI reduce its Final Administrative Cost Proposal pension costs by
$70,282 or refund this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, COSVI agreed with our recommendation.

COSVI’s comments are included in their entirety as Appendix B.




                                                i
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page


INTRODUCTION......................................................................................................................1 


          BACKGROUND .............................................................................................................1         

              Cooperativa de Seguros de Vida de Puerto Rico .................................................1 

              Medicare Reimbursement of Pension Costs ........................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1 

               Objective ..............................................................................................................1    

               Scope....................................................................................................................1   

               Methodology ........................................................................................................2        


FINDING AND RECOMMENDATION.................................................................................2 


          FEDERAL REQUIREMENTS........................................................................................2                     


          UNALLOWABLE PENSION COSTS CLAIMED ........................................................3 


          RECOMMENDATION ...................................................................................................3               


          AUDITEE COMMENTS.................................................................................................3                


APPENDIXES

          A – ALLOWABLE MEDICARE PENSION COSTS FOR COOPERATIVA DE

              SEGUROS DE VIDA DE PUERTO RICO FOR FISCAL YEARS 1988 

              THROUGH 1995 


          B – AUDITEE COMMENTS




                                                                    ii
                                                INTRODUCTION 


BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) has administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) since 1970. 1

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that COSVI claimed for
Medicare reimbursement for FYs 1988 through 1995.

Scope

We reviewed $607,093 of pension costs that COSVI claimed for Medicare reimbursement on its
Final Administrative Cost Proposals (FACP) for FYs 1988 through 1995. Achieving our
objective did not require that we review COSVI’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at COSVI’s office in Rio Piedras, Puerto Rico, during March and April
2008.



1
    On February 28, 2009, the contractual relationship was terminated.


                                                            1

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed COSVI’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 1988 through 1995. We also determined the extent to which COSVI
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on an allocation of Total Company CAS pension
costs to the Medicare segment and “Other” segment. The CMS Office of the Actuary calculated
the allocable Total Company CAS pension costs based on COSVI’s historical practices.

In performing our review, we used information that COSVI’s actuarial consulting firms
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined COSVI’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

COSVI claimed $70,282 of unallowable Medicare pension costs for FYs 1988 through 1995.
This overstatement occurred primarily because COSVI calculated pension expense using the
contributions to the pension plan instead of computing pension costs in accordance with CAS
412 and 413, as required by the Medicare contracts. In basing the pension expense on the
pension plan contributions, COSVI claimed $607,093 in Medicare reimbursement. We
calculated allowable pension costs for this period in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $536,811, a difference of $70,282.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.




                                               2

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

COSVI claimed $70,282 of unallowable Medicare pension costs for FYs 1988 through 1995.
During that period, COSVI claimed pension costs of $607,093 for Medicare reimbursement. We
calculated the allowable pension costs based on an allocation of Total Company CAS pension
costs to the Medicare segment and “Other” segment, in accordance with CAS 412 and 413.
Based on the terms of the Medicare contracts, the allowable CAS pension costs for this period
totaled $536,811.

The following table compares allowable CAS pension costs with the pension costs claimed on
COSVI’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                    Allowable      Claimed
                   Fiscal Year      Per Audit    By COSVI          Difference
                      1988               $2,593            $0           $2,593
                      1989               22,247             0           22,247
                      1990               71,072        49,439           21,633
                      1991               62,625        91,425          (28,800)
                      1992               60,670        33,938           26,732
                      1993              100,088      185,485           (85,397)
                      1994              108,201      139,640           (31,439)
                      1995              109,315      107,166             2,149
                       Total          $536,811      $607,093         ($70,282)

The Medicare contracts require COSVI to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, COSVI based its claim on the contributions to the
pension plan. As a result, COSVI claimed $70,282 of unallowable pension costs.

RECOMMENDATION

We recommend that COSVI reduce its FACP pension costs by $70,282 or refund this amount to
CMS.

AUDITEE COMMENTS

In written comments on our draft report, COSVI agreed with our recommendation.

COSVI’s comments are included in their entirety as Appendix B.


                                                3

APPENDIXES 

            ALLOWABLE MEDICARE PENSION COSTS FOR                            APPENDIX A
         COOPERATIVA DE SEGUROS DE VIDA DE PUERTO RICO                        Page 1 of 6
               FOR FISCAL YEARS 1988 THROUGH 1995

                                                 Total      “Other”   Medicare    Total
Date                Description                 Company     Segment   Segment    Medicare

 1987    Contributions                    1/          $0
8.00%    Discount for Interest            2/           0
1/1/87   Present Value Contributions      3/           0
         Prepayment Credit Applied        4/           0
         Present Value of Funding         5/           0

1/1/87   CAS Funding Target                6/     10,771
         Percentage Funded                 7/      0.00%
         Funded Pension Cost               8/          0
         Allowable Interest                9/          0
         Allocable Pension Cost           10/          0
         Segment Allocation Percentage    11/                83.97%     16.03%
         Segment Allocable Pension Cost   12/                     0          0




 1988    Contributions                           $20,435
8.00%    Discount for Interest                    (1,514)
1/1/88   Present Value Contributions              18,921
         Prepayment Credit Applied                     0
         Present Value of Funding                 18,921

1/1/88   CAS Funding Target                       45,874
         Percentage Funded                        41.25%
         Funded Pension Cost                      18,921
         Allowable Interest                            0
         Allocable Pension Cost                   18,921
         Segment Allocation Percentage                       83.97%     16.03%
         Segment Allocable Pension Cost                      15,888      3,033
1988     Fiscal Year Pension Cost         13/                11,916      2,275
         Medicare LOB* Percentage         14/                 2.67%    100.00%

         Allowable Pension Cost           15/                 $318      $2,275      $2,593
                                                                      APPENDIX A
                                                                        Page 2 of 6


                                           Total      “Other”   Medicare    Total
Date                Description           Company     Segment   Segment    Medicare

 1989    Contributions                    $188,460
8.00%    Discount for Interest             (12,775)
1/1/89   Present Value Contributions       175,685
         Prepayment Credit Applied               0
         Present Value of Funding          175,685

1/1/89   CAS Funding Target                154,982
         Percentage Funded                 100.00%
         Funded Pension Cost               154,982
         Allowable Interest                  1,053
         Allocable Pension Cost            156,035
         Segment Allocation Percentage                 83.97%     16.03%
         Segment Allocable Pension Cost               131,023     25,012
1989     Fiscal Year Pension Cost                     102,239     19,517
         Medicare LOB* Percentage                       2.67%    100.00%

         Allowable Pension Cost                        $2,730    $19,517     $22,247




 1990    Contributions                    $500,920
8.00%    Discount for Interest             (25,729)
1/1/90   Present Value Contributions       475,191
         Prepayment Credit Applied          22,360
         Present Value of Funding          497,551

1/1/90   CAS Funding Target                455,972
         Percentage Funded                 100.00%
         Funded Pension Cost               455,972
         Allowable Interest                 10,636
         Allocable Pension Cost            466,608
         Segment Allocation Percentage                 83.97%     16.03%
         Segment Allocable Pension Cost               391,811     74,797
1990     Fiscal Year Pension Cost                     326,614     62,351
         Medicare LOB* Percentage                       2.67%    100.00%

         Allowable Pension Cost                        $8,721    $62,351     $71,072
                                                                      APPENDIX A
                                                                        Page 3 of 6


                                           Total      “Other”   Medicare    Total
Date                Description           Company     Segment   Segment    Medicare

 1991    Contributions                    $425,017
8.50%    Discount for Interest             (17,164)
1/1/91   Present Value Contributions       407,853
         Prepayment Credit Applied          44,906
         Present Value of Funding          452,759

1/1/91   CAS Funding Target                381,607
         Percentage Funded                 100.00%
         Funded Pension Cost               381,607
         Allowable Interest                 13,866
         Allocable Pension Cost            395,473
         Segment Allocation Percentage                 88.11%     11.89%
         Segment Allocable Pension Cost               348,451     47,022
1991     Fiscal Year Pension Cost                     359,291     53,966
         Medicare LOB* Percentage                       2.41%    100.00%

         Allowable Pension Cost                        $8,659    $53,966     $62,625




 1992    Contributions                    $487,488
8.50%    Discount for Interest             (22,937)
1/1/92   Present Value Contributions       464,551
         Prepayment Credit Applied          77,199
         Present Value of Funding          541,750

1/1/92   CAS Funding Target                428,939
         Percentage Funded                 100.00%
         Funded Pension Cost               428,939
         Allowable Interest                 11,941
         Allocable Pension Cost            440,880
         Segment Allocation Percentage                 87.53%     12.47%
         Segment Allocable Pension Cost               385,902     54,978
1992     Fiscal Year Pension Cost                     376,539     52,989
         Medicare LOB* Percentage                       2.04%    100.00%

         Allowable Pension Cost                        $7,681    $52,989     $60,670
                                                                      APPENDIX A
                                                                        Page 4 of 6


                                           Total      “Other”   Medicare    Total
Date                Description           Company     Segment   Segment    Medicare

 1993    Contributions                    $775,713
7.50%    Discount for Interest             (32,948)
1/1/93   Present Value Contributions       742,765
         Prepayment Credit Applied         122,399
         Present Value of Funding          865,164

1/1/93   CAS Funding Target                707,135
         Percentage Funded                 100.00%
         Funded Pension Cost               707,135
         Allowable Interest                 17,156
         Allocable Pension Cost            724,291
         Segment Allocation Percentage                 86.11%     13.89%
         Segment Allocable Pension Cost               623,687    100,604
1993     Fiscal Year Pension Cost                     564,241     89,198
         Medicare LOB* Percentage                       1.93%    100.00%

         Allowable Pension Cost                       $10,890    $89,198    $100,088




 1994    Contributions                    $826,902
7.50%    Discount for Interest             (30,899)
1/1/94   Present Value Contributions       796,003
         Prepayment Credit Applied         169,881
         Present Value of Funding          965,884

1/1/94   CAS Funding Target                668,816
         Percentage Funded                 100.00%
         Funded Pension Cost               668,816
         Allowable Interest                 17,378
         Allocable Pension Cost            686,194
         Segment Allocation Percentage                 86.05%     13.95%
         Segment Allocable Pension Cost               590,470     95,724
1994     Fiscal Year Pension Cost                     598,774     96,944
         Medicare LOB* Percentage                       1.88%    100.00%

         Allowable Pension Cost                       $11,257    $96,944    $108,201
                                                                                                APPENDIX A
                                                                                                  Page 5 of 6


                                                             Total         “Other”      Medicare        Total
     Date                   Description                     Company        Segment      Segment        Medicare

     1995      Contributions                                 $807,312
    7.50%      Discount for Interest                          (28,049)
    1/1/95     Present Value Contributions                    779,263
               Prepayment Credit Applied                      319,348
               Present Value of Funding                     1,098,611

    1/1/95     CAS Funding Target                             742,935
               Percentage Funded                              100.00%
               Funded Pension Cost                            742,935
               Allowable Interest                              15,948
               Allocable Pension Cost                         758,883
               Segment Allocation Percentage                                 87.17%        12.83%
               Segment Allocable Pension Cost                               661,518        97,365
     1995      Fiscal Year Pension Cost                                     643,756        96,955
               Medicare LOB* Percentage                                       1.92%       100.00%

               Allowable Pension Cost                                       $12,360       $96,955       $109,315


  * Line of business.

FOOTNOTES

1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service 

   Form 5500 reports. The contributions included deposits made during the plan year and accrued 

   contributions deposited after the end of the plan year but within the time allowed for filing tax returns. 


2/ We subtracted the interest that was included in the contributions deposited after the beginning of the
   valuation year to discount the contributions back to their beginning-of-the-year value. For purposes of this
   Appendix, we computed the interest as the difference between the present value of contributions (at the
   valuation interest rate) and actual contribution amounts.

3/ The present value of contributions is the value of the contributions discounted from the date of deposit
   back to the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the
   end of the plan year to have been made on the final day of the plan year, consistent with the method
   mandated by the Employee Retirement Income Security Act.

4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A
   prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting
   Standards (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS
   pension costs.
                                                                                               APPENDIX A
                                                                                                 Page 6 of 6



 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is
    the amount of funding that is available to cover the CAS funding target measured at the first day of the plan
    year.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding 

    requirement of the Federal Acquisition Regulation (FAR) 31.205-6(j). 


 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded
    during the plan year. Because any funding in excess of the CAS funding target is accounted for as a
    prepayment in accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100
    percent. We computed the percentage funded as the present value of funding divided by the CAS funding
    target. For purposes of illustration, the percentage of funding has been rounded to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
    proportion as the interest on contributions bears to the present value of contributions. However, we limited
    the interest in accordance with FAR 31.205-6(j), which does not permit the allowable interest to exceed the
    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
    installments deposited within 30 days after the end of the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost
    purposes.

11/ The segment allocation percentage represents each segment’s portion of the Total Company allocable CAS
    pension cost. We determined the segment allocation percentages based upon salary information provided
    by COSVI. We assumed the 1987 through 1989 percentages equaled the 1990 percentages.

12/ We calculated the segment allocable pension cost as the Total Company allocable pension cost multiplied
    by each segment’s allocation percentage.

13/ We converted the plan year (January 1 through December 31) allocable pension costs to a fiscal year (FY)
    basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of the prior year’s
    costs plus 3/4 of the current year’s costs.

14/ We calculated allowable pension costs of the Medicare segment and “Other” segment based on the
    Medicare line of business (LOB) percentage of each segment. The Medicare segment charged 100 percent
    of its pension costs to Medicare. The “Other” segment charged only a portion of its pension costs to
    Medicare. We determined the LOB percentages based upon information provided by COSVI. We
    assumed the 1988 and 1989 LOB percentages equaled the 1990 LOB percentages.

15/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB
    percentage. Pursuant to CAS 412 and 413, the total Medicare allowable pension costs charged to the
    Medicare contract consisted of the Medicare segment’s direct pension costs plus “Other” segment pension
    costs attributable to indirect Medicare operations.
APPENDIX B
